                             SENSITIVE BUT UNCLASSIFIED




                     UNITED STATES DEPARTMENT OF STATE
                 AND THE BROADCASTING BOARD OF GOVERNORS
                                OFFICE OF INSPECTOR GENERAL

ISP-IB-13-49                                    Office of Inspections                                September 2013




                                   Inspection of
                                Voice of America
                              Latin America Division




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
General. No secondary distribution may be made, in whole or in part, outside the Department of State or the
Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by the
Inspector General. Public availability of the document will be determined by the Inspector General under the U.S. Code,
5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

In accordance with the U.S. International Broadcasting Act of 1994 (P.L.103-236) Section
304(a) (3) (B), OIG is prohibited from evaluating the content of BBG broadcasting entities. The
section, entitled “Respect for Journalistic Integrity of Broadcasters,” states that “The Inspector
General shall respect the journalistic integrity of the broadcasters covered by this title and may
not evaluate the philosophical or political perspectives reflected in the content of broadcasts.”

METHODOLOGY

   In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
   circulated, reviewed, and compiled the results of survey instruments; conducted on-site
   interviews; and reviewed the substance of the report and its findings and recommendations
   with offices, individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                                            1
Context                                                                                  2
Executive Direction                                                                      3
Radio Production Unit                                                                    4
Strategic Planning and Program Implementation                                            5
  Spanish Service                                                                        5
  Creole Service                                                                         6
Office of Strategy and Development-Satellite Marketing Office                            8
  U.S. Embassy Feedback on Working with Satellite Marketing Office and Voice of America
  Operations                                                                             8
Audience Research                                                                        9
  Spanish Service                                                                        9
  Creole Service                                                                        10
Relations and Coordination with the Office of Cuba Broadcasting                         11
Resource Management                                                                     12
  Contracting                                                                           12
  Contracting Officer’s Representative Designation                                      13
  Purchase Card                                                                         13
  Human Resources: Training, Nepotism, and Awards                                       14
  Equal Employment Opportunity and Diversity                                            14
Management Controls                                                                     16
  Travel                                                                                16
  Travel Compensatory Time                                                              17
List of Recommendations                                                                 18
List of Informal Recommendations                                                        19
Principal Officials                                                                     20
Abbreviations                                                                           21




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Voice of America Latin America Division, which includes the Spanish Service and
       the Creole Service, is functioning well and implementing successfully the Broadcasting
       Board of Governors’ 5-year strategic plan, Impact through Innovation and Integration.

   •   The Spanish Service’s Washington Bureau strategy has been the key to expanding its
       audiences in large Spanish media markets in Latin America. According to the latest
       estimates from the 2012 Gallup survey conducted in 16 Latin American countries, the
       service reaches an audience of 26.7 million, giving Latin America 13 percent of the total
       audience for U.S. international broadcasting.

   •   The Creole Service is the most used and trusted international news organization in Haiti,
       according to the 2012 Gallup national survey conducted in Haiti. It provides news and
       information about the world, the region, the United States, and Haiti, and it continues to
       play an important role supporting press freedom and democratization in Haiti.

   •   The Spanish Service and the Office of Cuba Broadcasting have grown and operate
       independently of one another, in part because of their distinct missions and target
       audiences. Some small-scale collaboration exists between these two broadcasting entities,
       and they are exploring other prospects for expanding collaboration in keeping with the
       Broadcasting Board of Governors’ 5-year strategic plan.

   •   The Latin American Division’s leadership is seeking to address three major management
       issues: lack of clear communication, teamwork coordination, and transparency in
       decisionmaking.

   •   The radio production unit is understaffed, resulting in excessive overtime and night
       differential pay. Voice of America’s senior management needs to assess the unit’s
       staffing needs, workload, and procedures and implement corrective actions.

   •   Two major contracting issues require closer oversight: contract administration procedures
       and contracting officer’s representative designation.

   •   Voice of America’s senior management allowed the former division director to use the
       travel flexibilities that exist under Federal Travel Regulations. His official trips to Miami
       and his use of telework and annual leave while on temporary duty were excessive.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected. The inspection
took place in Washington, DC, between May 2 and June 27, 2013. Robert Torres (team leader),
Monica O’Keefe (deputy team leader), and Elizabeth Whitaker conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        The Voice of America (VOA) Latin America Division broadcasts in Spanish to all
Spanish-speaking countries in Latin America and the Caribbean, except Cuba, and in Creole to
Haiti and other Creole-speaking Caribbean countries. The division stopped broadcasting in
Portuguese to Brazil in 2001. Employing radio, television, social media, and Web sites, the
division seeks to engage with the people of the hemisphere, in particular its growing population
of young people.

        The VOA Latin America Division faces two main strategic challenges: First, domestic
media in countries such as Argentina, Bolivia, Cuba, Ecuador, Nicaragua, and Venezuela are
feeling the pressure of government censorship and encroachments on press freedom. Second,
China, Iran, and Russia are expanding their influence and media presence in the region. The
division keeps these challenges in mind as it continues to expand in the region.

        The media market in Latin America is crowded, competitive, and sophisticated. Key to
the Spanish Service’s success has been the establishment of the Washington Bureau strategy.
The Gallup poll results from December 2012 showed that the past-week audience for the Spanish
Service in the Western Hemisphere was 26.7 million. Working with the International
Broadcasting Bureau’s (IBB) Office of Strategy and Development regional marketing officer
based in Miami, Florida, the Spanish Service partners with major radio and television outlets in
the region to provide custom reports, program packages, and live interactive material from the
United States—in effect, serving as a U.S. bureau for these affiliates.

        According to the July 2012 Gallup survey, the VOA Creole Service reaches over one-
quarter of the Haitian adult population and remains the most used international news
organization in Haiti. With radio as Haiti’s primary medium, the Creole Service is a trusted
source for Haitians seeking news about their country, the Caribbean, and the United States.

        The VOA Latin America Division is not the only element of U.S international
broadcasting in the Western Hemisphere. The Office of Cuba Broadcasting (OCB), through its
Radio and TV Marti operations, is tasked with providing accurate, objective, and comprehensive
news to the people of Cuba, where the government strictly censors the media. IBB uses
shortwave transmission to Cuba but not to the rest of Latin America. While the Cuba-focused
mission of the OCB differs from that of the VOA Latin America Division, collaboration and an
analysis of possible cost savings of sharing resources between the two entities have been
addressed in the 2011 Government Accountability Office report. 1 Cooperation between OCB and
the VOA Latin America Division is one of the tactical steps toward the objectives of BBG’s 5-
year strategic plan.




1
 U.S. Government Accountability Office, Followup report to the House of Representatives Committee on
Appropriations, Subcommittee on State, Foreign Operations, and Related Programs, Broadcasting Board of
Governors Should Provide Additional Information to Congress Regarding Broadcasting to Cuba, December 2011.

                                          2
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The VOA Latin America Division has assumed a more prominent role in BBG since
2009. The former division director, who resigned before the start of the inspection, successfully
implemented the Washington Bureau strategy in the Spanish Service and led the Creole Service
to be the leading international news organization in Haiti. Although he played a key role bringing
more affiliate relationships to the division, he traveled frequently and spent little time in the
office.

        The VOA Latin America Division senior staff is comprised of the acting division
director, who is also the supervisory managing editor; the acting Spanish Service chief; the
Creole Service chief; and the radio production unit supervisor. During the tenure of the former
division director, the supervisory managing editor was responsible for day-to-day operations.
During the absence of the division director, the decisionmaking process was confusing at times
because the supervisory managing editor would make managerial decisions; other times, she
would wait for the division director to make final decisions. A structure with only a division
director, two language service chiefs, and a radio production unit supervisor would make the
decisionmaking process clearer and more effective.

         The acting division director is viewed by the staff as a good journalist but is perceived as
inaccessible because of her dual role and not transparent in her decisionmaking. The Creole
Service has a talented and well-respected director. The Spanish Service has suffered from
inconsistent management for several years, but the current acting Spanish Service chief displays
initiative and is attentive to administrative procedures; however, some employees describe his
hands-on approach toward day-to-day tasks as overbearing. In addition, one team leader in the
Spanish Service sometimes communicates to the staff in a harsh and abrupt manner. These two
managers from the Spanish Service were cited in a number of OIG personal questionnaires and
interviews indicating a pattern of such behavior. The acting division director and acting Spanish
Service chief are making efforts to remedy many of the longstanding administrative and
management issues. The inspection team counseled senior management on these and other
managerial issues and suggested remedial actions.

        Morale in the division is mixed. Employees from both services said that their morale is
affected by the lack of transparency in decisionmaking, teamwork coordination, and poor
communication. Some employees feared that the lack of resources would hamper teamwork and
quality. Many employees used the word “secrecy” to describe the communication and
decisionmaking process in the division. Others perceived that the Spanish Service radio unit and
the television unit were stovepiped and not working as one team. Despite some of these issues
and perceptions, the inspection team found that the journalists were dedicated and proud of their
recent successes.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Radio Production Unit
       The radio production is responsible for the radio production needs of the Spanish and
Creole Services. It includes an executive producer and three production specialists.

        Some of the unit’s processes are inefficient. Radio production specialists do not use a
standard format for handling radio content. Instead, they use different title formats to identify
short clips of speech or music extracted from longer pieces of audio or audio interviews. Another
inefficiency is the creation of individual audio clips in individual folders rather than in common
folders for broadcasters to use. Using different formats and creating different clip folders are
confusing and unnecessary.

       The unit has lost 60 percent of its staff through attrition in the last 3 years even as
programming demands from affiliate stations have increased. As a result, overtime payments are
excessive in this particular unit. In 2012, the staff worked 527 hours of overtime at a cost of
$24,579. In addition to working long hours, the staff accrued excessive hours of night pay. 2 For
the same period, the total number of hours for night pay was 2,430 hours or the equivalent of
$31,244. The amount of overtime hours has resulted in chronic fatigue among the staff. Taking
annual or sick leave is also problematic because tasks must be reassigned to an already
overworked radio production specialist.

        The division and VOA management have not taken the necessary steps to address
workload, processes, and staffing needs, or to fill vacant permanent positions. The cost for the
overtime and night pay could have been used to offset the costs to hire a permanent employee.
During the course of the inspection a temporary position was advertised. Hiring a temporary
employee will not solve long-term staffing issues. Not addressing how the radio production unit
fits with the division’s operational strategies creates uncertainty and low morale among the unit’s
staff and incurs additional costs in overtime and night pay.

Recommendation 1: The Voice of America should conduct a formal review of staffing,
workload, processes, and procedures in the Voice of America Latin America Division’s radio
production unit and implement an action plan that addresses deficiencies. (Action: VOA)




2
  Night pay is a 10 percent differential paid to an employee for regularly scheduled work performed at night. It is
computed as a percentage of the employee's rate of basic pay (including any applicable locality payment or special
rate supplement; night work must be performed between the hours of 6 p.m. and 6 a.m.) for all three radio unit
employees.
                                            4
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Strategic Planning and Program Implementation
        In 2012, BBG issued its 5-year strategic plan, Impact through Innovation and
Integration. BBG proposes to end language services to countries with more developed,
independent media that are no longer strategic priorities; avoid language service duplication by
ensuring coordinated, complementary operations; draw down shortwave capacity and reallocate
resources to new Internet and social media platforms; deploy substantial news-gathering,
reporting and program production assets away from Washington and toward the target markets,
and establish efficient regional hubs. Technology priorities include: integrating and digitizing all
content to facilitate use across platforms; developing a global mobile strategy to exploit the
explosive growth in short message service (SMS) technology, applications, and Web-based
products; and satisfying the increasing appetite for English-language learning through radio,
television, and Web-based programs.

Spanish Service

        The Spanish Service has been broadcasting to Latin America for more than 50 years. It
has broadened its offerings from radio-only to a mix of radio, television, and digital media.
Starting in 2011, it has embraced a two-part strategy: traditional long-form program production
and placement and the aforementioned Washington bureau strategy. With this strategy, the
service meets the individual needs of its television and radio affiliates in Latin America with a
menu of news, customized interviews, audio and video clips, short-form reports and live on-site
reports from Washington, as well coverage of fast-breaking events in the United States.

        The service produces two long-form television programs: El Mundo al Dia (The World
Today), a daily 30-minute news program that features U.S. and international news and Foro
Interamericano (Inter-American Forum), an hour-long weekly news magazine. On radio, the
Spanish Service offers a variety of long-form news, information, and entertainment programs,
including Buenos Dias America (Good Morning America), a 30-minute weekday program that is
the service’s longest-running daily news program; Estudio 45 (Studio 45), a weekday half-hour
review of the top headlines; Desde Washington (From Washington), an hour-long weeknight
program featuring interviews with political figures from the United States and the hemisphere; A
Fondo (In Depth), a 60-minute weeknight program of news, interviews, and live commentary; as
well as weekly 30-minute music programs, Top Ten USA and Musica Country (Country Music),
and 5-minute segments on sports, science, immigration, and technology.

        The Spanish Service is online through its main Web site (VOAnoticias.com) and mobile
version (VOANoticias.voa.mobi), Twitter, Facebook, and YouTube. VOAnoticias.com provides
U.S. and international news, as well information about sports, entertainment, and technology.
Through social media, citizen journalism, and increased audience interaction, the service hopes
to reach younger people in the region.

        The Spanish Service’s Washington bureau strategy has proved to be successful. It gave
the service’s affiliates front-row seats to the 2012 presidential campaign and provided coverage
of Latin American delegations visiting the United States. This coverage would have been
exorbitantly expensive for many affiliates if they were covering it themselves. With


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

correspondents across the United States, the service also provides stories about the Latin
American community in the country—a topic of great interest in the region.

         Building on its strategy success, the Spanish Service wants to place its content with more
affiliates in Latin America and provide additional value to affiliates with the greatest audience
reach through live reports and custom products. The service’s marketing priorities for 2013 are
Mexico, Central America, and the targeted markets in South America. The service has begun to
experiment with a multimedia approach wherein reporters produce content for use on multiple
platforms, including radio, television, and social media. The service notes that multimedia
training will be required for many of its staff, long accustomed to producing content for one type
of media outlet (e.g., television or radio).

Creole Service

        The Creole Service (Lavwadlamerik in Creole) plays an important role as the only
international broadcaster providing information and supporting press freedom and
democratization in Haiti. While Creole and French are both official languages, most Haitians
speak Creole. According to the 2012 Gallup national survey, 82 percent of Haitian listeners said
they trust news and information from VOA, and 79 percent of respondents said that they get
news about Haiti that they cannot get from other sources. The service primarily uses radio and
has 15 Haitian affiliate broadcast stations. Television is not part of the Creole Service’s
operations, but it is making inroads through mobile phone, Internet, and social media platforms,
including a Web site (voanouvel.com), a Facebook page, and a Twitter account.

        The Creole Service’s crucial role was clearly demonstrated during the 2010 earthquake.
The service increased its radio broadcasts immediately after the earthquake, presenting an extra
air show for 90 minutes, marking the beginning of a surge in broadcasting to 10.5 hours on
weekdays and 9.5 hours on weekends. In October 2011, the Creole Service returned to a normal
schedule of three one-hour shows on weekdays and two half-hour shows on weekends. The
service continues to provide accurate information about U.S. policies that affect Haiti and makes
an effort to get the right balance in reporting Haitian political news. For example, in January and
February 2013, the service offered a series of reports and call-in shows covering political
divisions in the Haitian parliament with back-to-back reports from pro-government Haitian
senators and opposition leaders.

        Responding to the demand for increased listener participation and the need for journalism
training as stated in the BBG’s 5-year strategic plan, the Creole Service social media expert
trained 15 men and women in Haiti. They were then given iPhones to provide reports on
domestic developments from their specific regions via a Twitter feed connected to the Creole
Service Web site, vetted by an editor. The service has been working with the U.S. embassy in
Haiti to improve journalistic standards by providing an annual 1-week training program in
Washington, DC, for 10 Haitian journalists.

        Adding a television element to the Creole Service would be more complex given the
limited television infrastructure in Haiti and the equipment expense for VOA Washington.
Nevertheless, mobile phone use is growing. The service is running a pilot program using SMS
messages for news and information on mobile phones and exploring lower cost approaches such
as incorporating Internet video interviews into broadcasts and searching for technical solutions to
                                       6
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

low bandwidth problems at local affiliates while maintaining quality video standards. As mobile
phones and smart phones gain popularity in Haiti, there is potential for increased use of
messaging, Internet access, and social media.




                                      7
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Office of Strategy and Development-Satellite Marketing
Office
        The IBB Office of Strategy and Development has a regional marketing officer who works
in the OCB building in Miami, Florida. In early 2011, the VOA Latin America division director
and the regional marketing officer formed an effective team, traveling to countries with large,
sophisticated media markets throughout Latin America. They established new contacts,
identified needs consistent with VOA’s mission, and negotiated agreements to produce custom
content for each media outlet.

       The satellite marketing office functions well. Affiliate agreements follow a standard
template in English and Spanish and serve as a license for affiliate stations to use VOA material
provided they give VOA credit and respect the integrity of the entire product (e.g., news reports)
without cuts or changes. No fees are involved. The marketing officer spot checks materials to
confirm that VOA is credited and that content is not altered. The marketing officer is well placed
in Miami to maintain relationships with the affiliate stations and to work closely with the Latin
America Division to find the largest possible audience for VOA content.

        The marketing officer consults with U.S. embassies in the region to identify the right
media partners in 18 priority markets (17 Spanish-speaking countries and Haiti), helps to identify
the most promising new affiliate stations, and obtains cost estimates for equipment to supply
VOA’s signal in Haiti. The marketing officer also faces a number of challenges. In Venezuela,
for example, where the media is under intense pressure and visas for official Americans are
difficult to obtain, VOA has not been able to do intensive marketing.

U.S. Embassy Feedback on Working with Satellite Marketing Office and Voice of America
Operations

        The OIG team surveyed U.S. embassy public affairs officers (PAO) in the region about
awareness and effectiveness of VOA’s marketing, broadcast, and online presence. Surveys were
sent to 12 embassies in the Latin America region. Nine PAOs provided varied responses to the
survey. Some PAOs had strong relationships with VOA and the regional marketing officer. In
Bolivia, VOA has been actively cooperating with the PAO, who describes its programming as
effective and instrumental to outreach efforts. The PAO in Bolivia and VOA also cosponsor
journalist training. In Mexico, the PAO has not been involved in assisting marketing efforts;
therefore, the marketing officer has worked directly with affiliate stations.




                                       8
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Audience Research
Spanish Service

                                Latin America 2012 Gallup World Poll
                               VOA Spanish Service Audience Estimates*
 Country      Field-   Mid-2012    Saw       Heard      Saw      Saw/       Weekly       Weekly       Weekly       Weekly
              work      Adult      VOA       VOA       VOA       Heard     VOA TV         VOA          VOA       VOA Total
               date     Popu-       TV       Radio     Online     Any      Audience      Radio        Online      Audience
                        lation     Past       Past      Past     VOA                    Audience     Audience
                        (15+)      Week      Week      Week       Past
                          **         (%        (%        (%      Week
                                   adults)   adults)   adults)     (%
                                                                 adults)

Argentina     Sep‐12 30,600,000     1.5%       1.8%      0.8%      2.2%      472,573      538,338      260,034      666,321
Bolivia       Dec‐12   6,912,000    4.6%      11.2%      0.5%    13.4%       315,915      772,795       33,059      923,811
Chile         Dec‐12 13,398,000     2.1%       2.1%      1.5%      3.2%      279,619      281,807      200,351      429,442
Colombia      Dec‐12 33,654,000     6.0%       3.3%      2.2%      7.6%     2,017,601    1,117,113     728,733    2,555,356

Costa Rica    Oct‐12   3,420,000    3.3%       5.3%      1.7%      6.7%      112,860      181,260       58,140      229,140
Ecuador       Dec‐12 10,430,000     2.2%       2.5%      2.5%      5.7%      229,460      260,750      260,750      594,510

El Salvador   Oct‐12   4,284,000   11.4%      11.2%      6.4%    13.8%       488,376      479,808      274,176      591,192
Guatemala     Sep‐12   8,850,000    2.4%       2.7%      0.8%      3.9%      212,400      238,950       70,800      345,150
Honduras      Oct‐12   5,208,000    5.7%       8.9%      2.1%    10.9%       296,856      463,512      109,368      567,672
Mexico        Dec‐12 82,431,000    12.7%      10.8%      6.4%    18.1%     10,468,737    8,902,548   5,275,584   14,920,011
Nicaragua     Oct‐12   3,900,000    1.5%       2.8%      0.5%      3.5%       58,500      109,200       19,500      136,500
Panama        Sep‐12   2,556,000    6.0%       6.2%      3.8%      8.0%      153,360      158,472       97,128      204,480
Paraguay      Dec‐12   4,422,000    0.6%       0.4%      1.5%      2.3%       26,532       17,688       66,330      101,706
Peru          Sep-12 21,070,000    10.3%      10.8%      2.2%     14.9%     2,170,210    2,275,560     463,540    3,139,430
Uruguay       Dec‐12   2,618,000    1.8%       2.6%      1.0%      3.8%       47,124       68,068       26,180       99,484
Venezuela     Sep-12 21,087,000     3.9%       1.7%      1.8%      5.5%       822,393      358,479     379,566    1,159,785
TOTALS                                                                     18,172,516   16,224,348   8,323,239   26,663,990
*Audience Data Source: BBG questions placed on Gallup World Poll national surveys
**Adult Population Source: Population Research Bureau (standard for BBG audience projections).

        The 2012 World Poll Data Matrix chart above includes 16 of the 17 Spanish speaking
countries in the Latin America Division’s target audience: Argentina, Bolivia, Chile, Colombia,
Costa Rica, Ecuador, El Salvador, Guatemala, Honduras, Mexico, Nicaragua, Panama, Paraguay,
Peru, Uruguay, and Venezuela. The survey was aimed at the adult population and asked, during
the past week how many saw VOA TV; how many heard VOA radio; how many saw VOA
Online; and how many saw or heard any VOA. The total weekly VOA TV audience was
18,172,516; total weekly VOA radio audience was 16,224,348; total VOA weekly online
audience was 8,323,239; and total VOA weekly audience was 26,663,990.

        The questions about VOA were included in a larger Gallup World Poll opinion survey of
the region. BBG’s questions were not placed on the World Poll in the Dominican Republic
because of the lack of VOA rebroadcasting there at the time the placements were contracted. The
IBB Office of Performance Review-Office of Research points out that responses to BBG
questions in the 2012 poll show higher VOA Spanish Service reach than ever before measured,
                                               9
                                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

in part because many never- or rarely-surveyed markets were covered. Given the number of new
market-leading domestic broadcast partners in key countries like Mexico, Peru, and Colombia,
however, it is reasonable to interpret the poll findings to indicate VOA’s success in reaching
large, new audiences. These commercial stations would not carry VOA material unless it
delivered a quality product in high demand. Even in Bolivia, with more limited press freedom,
audience numbers are high at 13.4 percent of the adult population. Argentina and Chile have
been less of a priority and VOA has not marketed aggressively. While precise before-and-after
audience figures across the region are not available, the strategy of building strong affiliate
relationships has resulted in the largest audiences ever measured in Latin America.

Creole Service

                       VOA Weekly Reach Estimates in Haiti 2009-2012
                           VOA Total    VOA Creole
                         (any-language/    Total       VOA Creole              VOA Creole
                          any medium) (radio/Internet)     Radio                Internet
July 2012 (n=1,753)              25.1%          23.4%         20.5%                   5.6%
January 2011 (n=1,214)           62.6%          62.6%         62.1%                   5.7%
June 2009 (n=1,454)              50.1%          49.9%         49.8%                   1.8%
Sources: 2012 Gallup national survey.
         2009 and 2011 data Intermedia national survey.

n= the number of face to face interviews conducted.

       The chart above describes the weekly audience VOA reached in Haiti in June 2009,
January 2011, and July 2012. The 2012 Gallup poll indicates a 25 percent past-week audience
reach and points to the Creole Service as the primary source Haitians rely on for accurate news
and information about the United States, international issues, and events in Haiti.

         Comparisons with previous polls demonstrate some anomalies. Survey data indicated
that audience numbers spiked during the crisis period after the 2010 earthquake, the subsequent
cholera outbreak, and Haitian elections when the demand for information was high and VOA had
greatly increased its broadcasting hours. However, there are still large differences between the
results of the 2009 and 2012 polls. Further examination of the data does not necessarily lead to
the conclusion that VOA listenership has declined precipitously. The 2012 polls show a general
drop in all radio station audiences. The 2009 and 2011 polls were conducted by Intermedia, an
audience research firm that used a different methodology, a smaller sample, and a narrower
geographic range than the 2012 Gallup poll. The results are not easily compared but some
findings are consistent. The 2009 poll and the 2012 poll both found VOA to be the most popular
and trustworthy international radio broadcaster in Haiti. All recent polls suggest the Creole
Service is effectively reaching its target audience.




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Relations and Coordination with the Office of Cuba
Broadcasting
        BBG’s 5-year strategic plan calls for avoiding language service duplication. Both OCB
and the VOA Latin America Division broadcast in Spanish, but their missions and audiences are
very different. OCB is a Federal broadcasting entity focused exclusively on Cuba that broadcasts
only to Cuba; VOA Latin America serves as a Washington bureau for well-developed
commercial media outlets elsewhere in Latin America.

        Despite these differences, relations between OCB and the Spanish Service are collegial
and collaboration between them is growing. OCB has used the Spanish Service radio content for
many years and shares its own radio content with VOA. OCB provides the use of its Miami
television studio for the service’s Foro Interamericano program when the show’s guests find it
easier to travel to Miami than Washington. The two have collaborated in covering special events;
for example, the Spanish Service reporters have been featured live on Radio Marti broadcasts.
OCB’s Web site (Martinoticias.com) links to VOA’s Web site (VOAnoticias.com), but there is
no reciprocal link to OCB’s Web site.

        BBG’s 5-year strategic plan states that U.S.–funded media properties operating in the
same country should, where feasible, share bureaus, stringers, and distribution networks. While
the situation in Latin America clearly involves a multitude of countries, the logic of the strategic
plan in focusing on the best use of resources applies. The inspection team was told that there is
some consideration of the possibility of the two organizations sharing stringers, but no
arrangement has yet been formalized due to lack of consistent, specific guidance from the
Broadcasting Board of Governors. Some staff from the Latin America Division expressed
concerns about brand identity and quality of reporting if VOA were to collaborate more with
OCB. The Spanish Service and OCB have different missions, but that should not prevent greater
collaboration in terms of physical, technical, and human resources, which could result in
significant operational efficiencies.

Recommendation 2: The Broadcasting Board of Governors should require the Voice of
America and the Office of Cuba Broadcasting to implement specific collaborative actions
respectful of their different missions, as outlined in the Broadcasting Board of Governors 2012-
2016 strategic plan. (Action: BBG, in coordination with VOA and OCB)




                                        11
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
 Funding                    Employees                      General            Total Funding
  Source                                                  Operating            (estimated)
                                                          Expenses
FY 2013        Direct      Purchase         Stringers
President's    Hires        Order
Budget                     Vendors
Request               32           20                36   $4,650,704     $1,161,241    $5,811,945
Source: VOA Latin America Division

        The Latin America Division’s FY 2013 funding is estimated at $5.9 million. The division
has currently 32 full-time direct-hire employees, supplemented by 20 purchase order vendors and
36 stringers. Included in the total staff are an administrative officer and a contractor
administrative assistant. Eight unfilled positions are proposed for elimination.

Contracting

       The IBB Office of Contracts has not performed certain contract administration functions
in accordance with Federal Acquisition Regulations (FAR). The inspection team noted the
following weaknesses:

   •   Original contract files were not located in one specific office. The inspection team asked
       the Office of Contracts for a random sample of original files to review, but the
       contracting officer assigned to the contracts in the division did not maintain them in the
       office. Some original contracts were available and maintained by the division
       administrative officer who does not have any written contract administration designation.
       Other contract files were located in the VOA Office of Operations.

   •   The Office of Contracts does not maintain a comprehensive list of current contracts for
       the division. Only the division administrative officer keeps the list of active contracts
       because she enters financial information of contracts in the agency’s financial system,
       Momentum.

   •   Along with the acting division director, the acting Spanish Service chief and the Creole
       Service chief serve as contracting officer’s representatives (COR) in the division. The
       CORs for the Spanish and Creole Services are involved in too many administrative steps,
       including the solicitation and technical review for selecting stringers. The current
       contracting officer’s oversight has been limited to reviewing awards to ensure accuracy,
       completeness, and compliance with FAR requirements and signing the contracts.

   •   The division’s administrative officer follows up on payment issues and keeps track of
       expiration dates for contracts. These are responsibilities of the contracting officer. When
       there is a contract performance problem, the contractor goes to the designated COR or
       administrative officer, not the contracting officer. The sample contracts review showed
       that the CORs, not the contracting officer as required by the FAR, were involved in
       awarding and increasing the scope and dollar value of contracts.
                                       12
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        FAR Subpart 42.2—Contract Administration Services and Subpart 42.3—Contract
Administration Office Functions states that contract administration involves those activities
performed by a contracting officer after a contract has been awarded to determine how well the
government and the contractor performed to meet the requirements of the contract. It
encompasses all dealings between the government and the contractor from the time the contract
is awarded until the work has been completed and accepted or until the contract is terminated,
payment has been made, and disputes have been resolved. As such, contract administration
constitutes that primary part of the procurement process that assures that the government gets
what it has paid for.

        Contract administration was once the responsibility of the contracting officer in the VOA
Office of Operations. After the former contracting officer retired, the Office of Contracts did not
take on oversight of the active contracts and allowed contract administration to be handled in
part by the administrative officer. For example, the administrative officer was told by the former
contracting officer to give original contracts to the purchase order vendors and stringers after
signing the contracts, which is contrary to FAR requirements. The contracting officer assigned to
the division, who has signed off on the contracts, had not asked for the originals or copies of
active contracts until the inspectors asked for such information. The absence of sound contract
administration processes leads to inadequate monitoring of contracts and constitutes a potential
vulnerability.

Recommendation 3: The International Broadcasting Bureau, Office of Contracts, should
implement contract administration procedures for the Voice of America Latin America Division
contracts in accordance with Federal Acquisition Regulations. (Action: IBB)

Contracting Officer’s Representative Designation

        The Latin America Division has three CORs. Only one COR has taken the required COR
training. The other two CORs took the required training during the course of the inspection.
None has been designated officially in writing by the Office of Contracts as the COR for the
purchase order vendors’ contracts despite executing COR functions since 2009. A COR should
be officially designated when any contract is awarded, with a designation memorandum provided
to the COR to keep in the contract file. Such a designation was not included in any of the
contracts reviewed. In accordance with FAR section 1.604: “The file must include, at a
minimum, a copy of the contracting officer’s letter of designation and other documents
describing the COR’s duties and responsibilities.” A written designation defines limitations of
authority and presents clear roles and responsibilities.

Recommendation 4: The International Broadcasting Bureau, Office of Contracts, should
designate officially contracting officer’s representatives in the Voice of America Latin America
Division and include such information in the contracting files in accordance with Federal
Acquisition Regulations. (Action: IBB)

Purchase Card

        The purchase card holder in the division has completed required training and has a
written designation on purchase card use and responsibilities. In reviewing purchase card files

                                       13
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

from FYs 2010-2013, the inspection team found that the purchase card summary review, usually
performed by the purchase card holder’s supervisor, had not been documented consistently.

       Informal Recommendation 1: The Voice of America Latin America Division should
       document and maintain the monthly review of its purchase card on the IBB-0022 form.

Human Resources: Training, Nepotism, and Awards

        The IBB Office of Human Resources provides adequate support to the Latin American
Division, despite several shortcomings. A review of position descriptions in the division found
inconsistencies in the designation of supervisory responsibilities. Other position descriptions did
not reflect current responsibilities. An effort to update work requirements and performance
evaluations was in progress at the time of the inspection.

        In recent years, training budgets have been reduced. The acting division director has
recognized a need for the staff to have multimedia training. Managers in the division do not keep
track of training courses that employees have taken or need to take for professional development.
A more systematic approach would help the division to maintain VOA’s journalistic standards.

       Informal Recommendation 2: The Voice of America Latin America Division should
       implement a training plan for its employees.

        A few employees made reference in their questionnaires and interviews to perceptions of
nepotism arising from the fact that there is a married couple working in the Spanish Service. The
inspection team noted that proper reporting structures were in place so that one member of the
couple could not supervise the other. The Office of Human Resources has procedures in place to
document any potential case of nepotism.

        Purchase order vendors have not been recognized for the extraordinary work that many of
them have performed. They work side-by-side with direct-hire employees, and some perform at
an outstanding level. A "thank you" and a certificate of appreciation presented in front of
division employees could be used to recognize their outstanding work.

       Informal Recommendation 3: The Voice of America Latin America Division should
       expand its awards program to include purchase order vendors for nonmonetary
       recognition such as certificates of appreciation.

Equal Employment Opportunity and Diversity

        Most employees interviewed were aware of the Equal Employment Opportunity program
and the IBB Office of Civil Rights. However, interviews with purchase order vendors indicated
that many feel like “second class-citizens,” an issue that has been discussed in previous OIG
inspection reports of VOA language services. The inspection team did not find any evidence that
purchase order vendors have been treated as second class-citizens, but these concerns were
brought to the attention of the acting division director.

        The Creole Service has only two women working in the office. Few women are hired as
stringers. This lack of diversity was brought to management’s attention. Diversity should be kept
                                       14
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

in mind in any future hiring although the problem may be that there are fewer women in Haiti in
the broadcasting field.

        In addition, there is a perception among division employees that females are not treated
with the same respect as male employees. The inspection team counseled division leaders about
this perception and suggested they seek the advice from Office of Civil Rights.

Property Management

       An inventory was underway during the course of the inspection. The annual inventory is
conducted by the division’s radio executive producer. There were no major issues with property
management. The inspection team made suggestions about the disposal of accountable items and
storage of equipment.




                                       15
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
        Several employees in the division alleged inaccuracies of arrival and departure times of
the time and attendance’s sign-in/sign-out process. Interviews and a review of these records did
not indicate falsification of arrival/departure times. During the course of the inspection, the
division reissued the time and attendance policy to all personnel, which includes the requirement
to accurately record arrival and departure times in the sign-in/sign-out sheets.

        The inspection team identified two management control weaknesses: anomalies in the
travel of the former division director and the failure to record travel compensatory time.

Travel

       The inspection team reviewed a sample of travel authorizations and vouchers from FYs
2010, 2011, 2012 and travel vouchers between October 2012 and April 2013. Although the
inspectors did not review travel receipts and invoices, the team checked the validity for the
expenses claimed and found them in compliance with Federal Travel Regulations. The sample
had the following anomalies:

   •     There was a consistent pattern of travel by the former division director starting on
         Thursday and ending on Tuesday. The route for most trips was from Washington, DC,
         through Miami, to a Latin America country. Based on the travel vouchers reviewed, the
         traveler did not use the government-contracted air carriers or routes as required by
         Federal Travel Regulations. Even if travel through Miami was more cost effective, the
         justifications for not using a contract carrier were not documented in the travel vouchers.
         Some of the approved official trips to Latin America could have been initiated from the
         Washington metropolitan area directly to the destination in Latin America.

   •     The purposes for travel cited in the former division director’s travel vouchers were vague.
         For example, many vouchers stated that the purpose was for “on-site visit;” other
         vouchers stated “meetings” or “coordination.” VOA management said that in the first
         year of the former division director’s tenure, he was pursuing a BBG mandate to examine
         the possibility of moving the VOA Latin America Division from Washington to Miami,
         as stated in the original job announcement, and he made frequent trips there. By his
         second year, the move was no longer being considered but he continued to travel often to
         Miami. Even if every trip required a “coordination meeting” in Miami with the regional
         marketing officer or OCB, the inspection team did not find the justifications to be
         reasonable or cost effective. Some of these “meetings” took place over a period of 5 days
         (Thursday-Tuesday). For example, from April to June 2010, the former director was
         authorized to travel every week to coordinate with OCB about Web site programming.
         Given the availability of teleconferencing and video conferencing, many of the trips
         appear unjustified.

   •     The former division director often combined annual leave and telework as part of his
         travels. In the sample reviewed, some trips would start on a Thursday and end on
         Tuesday. The former director would often telework the next day and take annual leave on
         the next 2 days. The use of annual leave was not noted in the travel vouchers, although
                                         16
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       the E2 travel system allows it to be included so that per diem and lodging are not
       inadvertently paid to the traveler. From the sample reviewed, the former director was not
       given per diem or lodging when he was in an annual leave status.

   •   From FYs 2010-2012, the former division directors pent $136,932 on travel. The total
       funds spent on travel for the entire division in these 3 fiscal years was $353,824.

         Combining official travel with annual leave and telework is not a violation of Federal
Travel Regulations. The former director used official travel to visit his family living in Miami.
The VOA senior management staff acknowledged that when the former division director was
hired, VOA senior managers at that time agreed that he could transit through Miami on official
trips to Latin America. In addition, VOA senior management staff asserted that the cost of his
travel was fairly modest compared to other BBG travelers; but with increased scrutiny by the
BBG Governors and decreased resources for travel costs, the VOA Director decided the
arrangement was not defensible and stopped it in March 2013. They also said that there will not
be a need for the division director to travel as often to Latin America in the future.

        The former director’s frequent official trips to Miami and his use of telework and annual
leave while in travel status were excessive. The inspectors believe that the former director’s
travels to Latin America to increase affiliate stations for VOA contributed to the success of the
division and the agency, but better judgment should have been used in approving travel for
coordination meetings with the regional marketing officer and OCB . Travel funds should be
used in the most effective way to support the agency’s mission.

Travel Compensatory Time

        The inspection team reviewed a sample of time and attendance records. Most records
included appropriate supporting documentation. However, travel compensatory time procedures
have not been followed in accordance with the IBB policy on travel compensatory time issued on
July 5, 2008. The policy states that proper documentation and recording of the hours spent on
travel needs to be provided on the form IBB-0105, Compensatory Time for Time Spent in Travel
Status. The division has not been using the required form for approval of travel compensatory
time. The amounts of compensatory time taken have not been recorded and the leave form OPM-
0071 has not been used to request the use of accrued travel compensatory time. The contract
administrative assistant, who is responsible for time and attendance, was not aware of the policy,
despite taking time and attendance training. This issue has not been covered in the training, but
as a result of the inspection, it will be covered in future time and attendance training. As soon as
the inspection team raised this issue with division management, steps were taken to correct this
operational deficiency and implement procedures to record official travel compensatory time in
accordance with IBB policy. The travel compensatory time is recorded “off the books,” but it is
important to follow agency procedures to prevent abuse of this benefit.

       Informal Recommendation 4: The Voice of America Latin America Division should
       implement the International Broadcasting Bureau policy for official travel compensatory
       time.



                                       17
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Voice of America should conduct a formal review of staffing,
workload, processes, and procedures in the Voice of America Latin America Division’s radio
production unit and implement an action plan that addresses deficiencies. (Action: VOA)

Recommendation 2: The Broadcasting Board of Governors should require the Voice of
America and the Office of Cuba Broadcasting to implement specific collaborative actions
respectful of their different missions, as outlined in the Broadcasting Board of Governors 2012-
2016 strategic plan. (Action: BBG, in coordination with VOA and OCB)

Recommendation 3: The International Broadcasting Bureau, Office of Contracts, should
implement contract administration procedures for the Voice of America Latin America Division
contracts in accordance with Federal Acquisition Regulations. (Action: IBB)

Recommendation 4: The International Broadcasting Bureau, Office of Contracts, should
designate officially contracting officer’s representatives in the Voice of America Latin America
Division and include such information in the contracting files in accordance with Federal
Acquisition Regulations. (Action: IBB)




                                       18
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Voice of America Latin America Division should
document and maintain the monthly review of its purchase card on the IBB-0022 form.

Informal Recommendation 2: The Voice of America Latin America Division should
implement a training plan for its employees.

Informal Recommendation 3: The Voice of America Latin America Division should expand
its awards program to include purchase order vendors for nonmonetary recognition such as
certificates of appreciation.

Informal Recommendation 4: The Voice of America Latin America Division should
implement the International Broadcasting Bureau policy for official travel compensatory time.




                                      19
                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                         Name    Arrival Date
Latin America Division Acting Director       Clara Dominguez          03/2013
Spanish Service Acting Chief                      Iscar Blanco        03/2013
Creole Service Chief                             Ronald Cesar         02/2008
Radio Production Unit Supervisor                 Milton Frank         01/1980




                                     20
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG               Broadcasting Board of Governors

COR               Contracting officer’s representatives

FAR               Federal Acquisition Regulations

IBB               International Broadcasting Bureau

OCB               Office of Cuba Broadcasting

OIG               Office of Inspector General

PAO               Public affairs officer

VOA               Voice of America




                             21
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
